{

4

Case: 0:20-mc-00029-MJD

Document #: 7-0

Date Filed: 04/13/2020

Page 1 of 1

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

ANTWOYN TERRELL SPENCER,
Petitioner.

Case No. 20-MC-0029 (MJD)
ORDER

This matter comes before the Court on Petitioner Antwoyn Terrell Spencer’s
Motion to Alter or Amend Judgment, ECF No. 6 (Motion). Based on all of this action s
files, records, and proceedings, it is hereby ordered that the Motion is DENIED.

Dated: April 13, 2020

s/ Michael J. Davis
Michael J. Davis
United States District Court

•; u

CASE 0:20-mc-00029-MJD Document 2 Filed 03/17/20 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
ANTWOYN TERRELL SPENCER,
Petitioner.

Case No. 20-MC-0029 (MJD)
ORDER

Petitioner Antwoyn Terrell Spencer was restricted from filing successive § 2255
motions in this District without first obtaining preauthorization from the U.S. Court of
Appeals for the Eighth Circuit. See Am. Order Adopting R. & R. 6, Spencer v. Watson,
No. 17-CV-3999 (SRN/LIB) (D. Minn. Jan. 22, 2019). In addition, the same order stated
that “any written materials hereafter received from [Spencer] shall be presented to the
district judge assigned to the case, without being filed, for [the district judge’s approval].”
Id. On March 13, 2020, Spencer filed a Motion for Writ of Habeas Corpus Ad
Subjiciencum, ECF No. 1 (Motion). The Petition’s content plainly shows that it is a
successive § 2255 motion. See generally Mot. There is no indication that Spencer
received Eighth Circuit preauthorization before filing the Motion, and so the Court
construes the Motion as implicitly seeking this Court’s approval for filing.
Upon review, the Court concludes that the proposed Motion lacks an arguable
basis either in fact or in law and therefore is frivolous. See Neitzke v. Williams, 490 U.S.
319, 325 (1989); Coppedge v. United States, 369 U.S. 438, 444^15 (1962). Accordingly,
the Court denies the request for filing approval and orders that this proceeding be closed.
The Court also certifies that any appeal taken from this denial would not be in good faith,

CASE 0:20-mc-00029-MJD Document 2 Filed 03/17/20 Page 2 of 2

and thus any request to proceed in forma pauperis on appeal will be denied on that basis.
See Fed. R. App. P. 24(a)(3)(A).
LET JUDGMENT BE ENTERED ACCORDINGLY.

Dated: March 17, 2020

s/ Michael J. Davis
Michael J. Davis
United States District Judge

2

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1913

Antwoyn Terrell Spencer
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:20-mc-00029-MJD)
JUDGMENT

Before COLLOTON, KELLY, and STRAS, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed. The appellant’s
motion for leave to proceed on appeal in forma pauperis is denied as moot.
May 15, 2020

Order Entered at the Direction of the Court:1
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

y :;i

h

